WAIVER

 

 

 

. SUPREME COURT OF THE UNITED STATES
No. 20-1391
Sportswear, Inc. d/b/a Prep Sportswear Savannah College of Art and Design, Inc.
(Petitioner) Mi (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© [am filing this waiver on behalf of all respondents.

© __Ionly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

 

{
Please check the appropriate box:

© 1 am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Tam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructigns: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, W: 3

    

 

Signature:

Dee jo5/04/2021

 

 

(Type or print) Name |W. Andrew Pequignot

Zo) Mr. O Ms. O Mrs. O Miss
Firm \Moore Pequignot LLC

 

 

Address 887 West Marietta Street NW, SuiteM-102 0 |

 

City & State Atlanta, GA

Phone 404-748-9596 Email |andrew @themoorefirm.com

 

 

 

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Adam G. Unikowsky, Jenner & Block LLP

 
